March 31, 1999

ANTHONY VEGLIANTE
VICE PRESIDENT, LABOR RELATIONS

YVONNE D. MAGUIRE
VICE PRESIDENT, HUMAN RESOURCES

JESSE DURAZO
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT:	 Follow-up on USPS Recommendations to Investigate Sexual
          Harassment Allegations and to Reassign a Supervisor from His
          Position of Authority (Garden Grove Post Office)
          Audit Report Number LR-AR-99-008

This report presents the results of our review of our follow-up on USPS
recommendations to investigate sexual harassment allegations at the Garden
Grove, California Post Office, and to reassign a supervisor at the same Post
Office from his position of authority (Project Number 99-EA-011-LR-000). The
report responds to a complaint received by the Office of Inspector General
concerning these allegations.

The audit disclosed that Santa Ana District officials had not taken action to
investigate sexual harassment allegations. We also found that the District
reassigned the former Garden Grove supervisor to management positions with
supervisory duties and responsibilities, despite the District Manager's pledge
not to reassign the supervisor to a job with direct responsibility for supervising
employees.

Management disagreed with our conclusions and recommendations.
Management's comments and our evaluation of these comments are attached
to the report.
We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions please contact me at 703-248-2300.



//Signed//
Billy Sauls
Assistant Inspector General
  for Employee

Attachment

cc: 	David Shapiro
     John R. Gunnels
     Alan B. Kiel
Garden Grove Post Office – Sexual Harassment Allegations   LR-AR-99-008



                             Table of Contents



 Part I

 Executive Summary                                                  1

 Part II

 Introduction
    Background                                                      4

   Objective, Scope, and Methodology                                5

 Audit Results
   Sexual Harassment Allegations Investigated                       6

   Reassignment of a Supervisor                                    10

 Appendix                                                          14




                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations	              LR-AR-99-008



                          EXECUTIVE SUMMARY
 Introduction	             This report presents the results of our follow-up on
                           United States Postal Service (USPS)
                           recommendations to investigate sexual harassment
                           allegations at the Garden Grove, California Post
                           Office, and to reassign a supervisor at the same Post
                           Office from his position of authority.

 Results in Brief	         During an Office of Inspector General (OIG) review in
                           October 1998 of allegations of retaliation at the
                           Garden Grove Post Office, we identified two additional
                           issues directly related to a February 1998 investigation
                           conducted by the OIG and thae USPS: (1) allegations
                           of sexual harassment had not been investigated, and
                           (2) the improper reassignment of a supervisor from the
                           Garden Grove Post Office. The February 1998
                           investigation resulted in a USPS report that was
                           issued on September 8, 1998. That report
                           recommended that Garden Grove and Santa Ana
                           District management promptly investigate all
                           allegations of sexual harassment. The report also
                           recommended that a supervisor be placed in a
                           position outside of the Garden Grove Post Office
                           where he would have limited contact with employees.

                           During a follow-up of actions taken, we found that
                           Garden Grove and Santa Ana District officials had not
                           taken action to investigate sexual harassment
                           allegations. We also found that the Santa Ana District
                           reassigned the former Garden Grove supervisor to
                           management positions with supervisory duties and
                           responsibilities, despite the Acting District Manager's
                           statement that “he will be reassigned to a job that
                           does not have direct responsibility for supervising
                           employees.”

 Recommendations	          We offer the following recommendations:

                           1. The Vice-President, Pacific Area, report the results
                              of the sexual harassment investigations to the Vice
                              President, Labor Relations; the Vice President,
                              Human Resources; and the OIG.




                                         1
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations               LR-AR-99-008


                          2. The Vice-President, Pacific Area, determine why
                             allegations of sexual harassment were not
                             investigated and take the appropriate corrective
                             action.

                          3. The Vice President, Pacific Area, review the
                             position to determine if it can be modified to
                             remove the supervisory duties and responsibilities
                             and still meet the terms of the Merit Systems
                             Protection Board Settlement Agreement

Summary of                Management responded as follows:
Management
Response                  1. Management provided us an investigative report
                             on their February 1999 investigation.
                             Management’s conclusion, based on the
                             investigative report, is that there was no evidence,
                             nor was the supervisor’s behavior sufficiently
                             severe or pervasive to create a hostile work
                             environment.

                          2. Management stated that because the Pacific Area
                             Team found no evidence that allegations of sexual
                             harassment were made, an investigation was not
                             conducted. Management also concluded that it
                             “strongly” believed that with the completion of the
                             February 1999 investigation, that the allegations of
                             sexual harassment were now completely
                             investigated and that no further action was
                             required.

                          3. Management stated the supervisor does not
                             supervise or oversee the same employees on a
                             daily basis, and that he is assigned duties that are
                             technical and administrative in nature. In their
                             opinion, the position could not be modified to
                             eliminate contact with other employees because
                             such a modification would eliminate the essential
                             functions of the position. Management also
                             believes the supervisor’s position meets the terms
                             of the Merit Systems Protection Board Settlement
                             Agreement.

                          We summarized these responses in the report and
                          included the full text of the comments in the Appendix.



                                         2
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations         LR-AR-99-008



Evaluation of             We do not agree with management’s conclusions and
Management                comments concerning our recommendations. A
Response                  detailed evaluation of management’s response is
                          included in the body of the report.




                                         3
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations	            LR-AR-99-008



                               INTRODUCTION
Background	                In February 1998, the Manager of Human Resources,
                           Pacific Area, selected a USPS team to investigate
                           allegations of mismanagement, harassment, and
                           sexual harassment by management at the Garden
                           Grove Post Office. The investigative team conducted
                           on-site interviews, several in conjunction with OIG
                           investigators, with nine Garden Grove supervisors and
                           managers and 82 craft employees. The USPS team
                           issued a final investigative report on September 8,
                           1998, which included recommendations that Santa Ana
                           District management: (1) promptly investigate all
                           allegations of sexual harassment, and (2) place one
                           supervisor in a position outside of the Garden Grove
                           Post Office where he would have limited contact with
                           employees. The report also recommended that
                           Garden Grove management receive sexual
                           harassment training, which was accomplished in May
                           1998.

                           In a September 8, 1998 letter transmitting the USPS
                           report to the Pacific Area Vice President, the Vice
                           President of Human Resources stated "of special
                           importance…is the allegation that complaints of sexual
                           harassment by supervisors were not properly
                           investigated." She requested that area management
                           follow up with a status report by December 4, 1998, on
                           steps the performance cluster management had taken
                           to ensure that any allegation of sexual harassment was
                           thoroughly investigated.

                           On September 15, the Pacific Area Vice President
                           responded to the Vice President of Human Resources
                           that an investigation was not conducted because the
                           investigative team found "no concrete evidence" that
                           sexual harassment had occurred. This statement is
                           contrary to the September 8, 1998 report, which states
                           that the Postmaster acknowledged that at least one
                           employee had made an allegation of sexual
                           harassment against a supervisor, but that the
                           Postmaster had failed to take appropriate action. The
                           report recommended that all allegations be immediately
                           investigated.




                                         4
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations             LR-AR-99-008



Objectives, Scope,         This report addresses whether: (1) Garden Grove Post
and Methodology            Office and Santa Ana District management properly
                           investigated sexual harassment allegations, and (2) the
                           reassignment of a supervisor was in accordance with
                           the USPS report recommendations.

                           We reviewed the September 1998 USPS investigative
                           report. We interviewed the investigation team leader.
                           We interviewed and obtained sworn statements from
                           Garden Grove Post Office craft employees. At the
                           Santa Ana District, we interviewed the District Manager
                           and the Acting Manager, Human Resources. We also
                           interviewed an area postmaster where the former
                           supervisor had been reassigned. At the Pacific Area,
                           we interviewed the Manager, Human Resources, and
                           an Attorney with the Administrative Advocacy Unit.

                           We conducted our review October 1998 and February
                           1999 in accordance with generally accepted
                           government auditing.




                                         5
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations                         LR-AR-99-008



                                  AUDIT RESULTS
Sexual Harassment              Our review disclosed that Garden Grove and district
Allegations                    officials did not investigate some sexual harassment
Investigated                   allegations and as stated in the Pacific Area Team
                               investigative report dated September 8, 1998 “failure
                               to act promptly on allegations of sexual harassment
                               could expose the USPS to liability.” The August 13,
                               1998 Postal Bulletin defines the USPS policy on
                               sexual harassment as follows: “The United States
                               Postal Service is committed to providing a work
                               environment free of sexual harassment. Sexual
                               harassment is improper and/or unlawful conduct that
                               undermines the employment relationship as well as
                               employee morale. All managers and supervisors are
                               responsible for preventing sexual harassment in the
                               workplace and must respond promptly when they
                               learn of any conduct that may be sexual harassment
                               [and] must see that a prompt and thorough
                               investigation of the conduct takes place. If sexual
                               harassment is found, they must take prompt and
                               appropriate remedial action. The U.S. Postal Service
                               will not tolerate sexual harassment.”1

                               In his September 15, 1998 response to the Vice
                               President for Human Resources request for a status
                               on the sexual harassment findings, the Pacific Area
                               Vice President responded that because the
                               investigation found no concrete evidence of sexual
                               harassment or that the Postmaster had failed to take
                               appropriate action an investigation was not conducted.
                               During the October 1998 OIG review of allegations of
                               retaliation at the Garden Grove Post Office,2 an
                               employee stated that one supervisor had sexually
                               harassed female employees in the past and had been
                               protected from investigation by the former postmaster.
                               Other Garden Grove employees also complained
                               about that supervisor, and expressed the opinion that
                               he had not been disciplined or held accountable for his
                               sexual harassment behavior.

                               The contradiction between the Area Vice President's
1
 Employees' Guide to Understanding Sexual Harassment, Publication 553, July 1998.
2
 OIG Report, Allegations of Retaliation at the Garden Grove Post Office, March 31, 1999,
Report # LR-AR-99-006.



                                               6
                                    Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations	                    LR-AR-99-008


                             statement and the findings and recommendations in
                             the September 8, 1998 report, along with the
                             statements made by employees during our review,
                             lead us to question whether the allegations had been
                             fully investigated.

                             In February 1999, after our inquiries into this matter,
                             we learned that the Pacific Area initiated an
                             investigation into the sexual harassment allegations.

Recommendation 1	            The Vice-President, Pacific Area, report the results of
                             the sexual harassment investigation to the Vice
                             President, Labor Relations; the Vice President,
                             Human Resources; and the OIG.

Management                   Management responded by providing us an
Response                     investigative report on their February 1999
                             investigation. The investigation was conducted by the
                             Pacific/Western Area Equal Employment Opportunity
                             Compliance & Appeals Coordinator. 3 The
                             investigative report indicates that the Vice President,
                             Human Resources; Pacific Area Vice President,
                             Deputy Postmaster General, and the HQ Director for
                             Workplace Environment Improvement received copies
                             of the report.

                             Management’s conclusion, based on the investigative
                             report, is that there was no evidence that the
                             supervisor’s behavior was sufficiently severe or
                             pervasive to create a hostile work environment.

Evaluation of                We agree that Management’s provision of the
Management                   investigative report to the OIG as well as the Vice
Response                     President, Human Resources is in compliance with
                             our recommendation. We noted however, that the
                             Vice President, Labor Relations, was not listed as an
                             intended recipient of the report.

                             We do not agree with management’s conclusion that
                             the findings in the investigative report do not
                             substantiate that the supervisor’s behavior was not


3
  The Equal Employment Opportunity Compliance Appeals Coordinator was also the team
leader who conducted the original February 1998 Garden Grove investigation.



                                            7
                                  Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations	              LR-AR-99-008


                           “sufficiently severe or pervasive” to have created a
                           hostile work environment. Specifically, the
                           investigative report concludes that the supervisor did
                           sexually harass three female employees during the
                           relevant time period. The report states that interviews
                           conducted during the investigation disclosed that
                           during the period 1994 to 1996, the supervisor
                           “sexually harassed” employees and that the
                           harassment took the form of the supervisor making
                           comments of a “sexual nature” and “touching them on
                           the back, arm, and hugging them.” The report goes
                           on to state that the Postmaster knew of the behavior
                           and “employees interviewed stated that the
                           Postmaster did not correct” the supervisor’s behavior
                           of “harassing them.”

                           Management ignored the seriousness of the findings
                           in the investigative report, which results in non­
                           compliance with USPS policy regarding sexual
                           harassment.

Recommendation 2	          The Vice-President, Pacific Area, determine why
                           allegations of sexual harassment were not
                           investigated and take the appropriate corrective
                           action.

Management                 Management told us that because the Pacific Area
Response                   Team found no evidence that allegations of sexual
                           harassment were made, an investigation was not
                           conducted. Management also concluded that it
                           “strongly” believed that with the completion of the
                           February 1999 investigation, that the allegations of
                           sexual harassment were now completely investigated
                           and that no further action was required. Management
                           based their decision to take no further action on the
                           finding that most of the involved parties were no
                           longer at the Garden Grove Post Office.

Evaluation of              We agree that management took the appropriate
Management                 action when they initiated the February 1999
Response                   investigation of the sexual harassment allegations.
                           We do not agree, however, that there was no
                           evidence that sexual harassment had occurred. As
                           stated in our report, the USPS was aware of the
                           sexual harassment allegations as early as February



                                         8
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations                LR-AR-99-008


                           1998 when the Pacific Area Team conducted its work
                           at the Garden Grove Post Office. The team's final
                           investigative report issued on September 8, 1998, and
                           provided to the OIG by the Vice President, Human
                           Resources, also acknowledged that the Postmaster
                           knew of at least one employee who had made an
                           allegation of sexual harassment against the
                           supervisor. The report specifically recommended that
                           the Santa Ana District management promptly
                           investigate all allegations of sexual harassment and
                           that “Failure to act promptly on allegations of sexual
                           harassment could expose the USPS to liability."

                           In a September 8, 1998 letter transmitting the USPS
                           report to the Pacific Area Vice President, the Vice
                           President, Human Resources stated "of special
                           importance…is the allegation that complaints of sexual
                           harassment by supervisors were not properly
                           investigated." The Vice President, Human Resources
                           requested that area management follow-up with a
                           status report by December 4, 1998, on steps the
                           performance cluster management had taken to ensure
                           that any allegation of sexual harassment was
                           thoroughly investigated.

                           For the investigative team leader to conclude on
                           September 15, 1998, seven days after the issuance of
                           the final report, that there was no "concrete evidence"
                           that sexual harassment had occurred, is in direct
                           contradiction with the final report. We believe this
                           contradiction, and the lack of attention to the serious
                           issues identified in USPS’ own investigative report
                           bring into question not only the integrity of the original
                           Garden Grove investigation, but possibly the entire
                           investigative process.

                           We do not agree with Management’s conclusion
                           that the allegations of sexual harassment were
                           now completely investigated and that no further
                           action was required. Specifically, the decision to
                           take action against a sexual harasser is not
                           dependent on whether or not the witnesses and
                           the harasser are employed at the location where
                           the sexual harassment took place. In this



                                         9
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations                     LR-AR-99-008


                             particular case, the supervisor is still employed by
                             the USPS and his inappropriate actions should be
                             reviewed for the purpose of taking the appropriate
                             disciplinary and/or corrective action.

Reassignment of a            A primary issue in many of the employees’ allegations
Supervisor                   in the Pacific Area Team’s report was the behavior of
                             a supervisor removed from Garden Grove. Craft
                             employees consistently identified this individual as the
                             main harasser. The USPS report concluded that the
                             supervisor should be placed in a position outside of
                             the Garden Grove Post Office where he would have
                             limited contact with employees. In a May 8, 1998,
                             memo addressed to the Manager Human Resources,
                             Pacific Area, the Acting Manager, Santa Ana District,
                             stated that the supervisor "will be reassigned to a job
                             that does not have direct responsibility for supervising
                             employees."

                             We confirmed that the supervisor was reassigned
                             outside of the Garden Grove Post Office; however, he
                             was assigned to a management position as a route
                             examiner.4 We find this action inconsistent with the
                             recommendation in the USPS report.

                             Section 231.1 of Handbook M-39, Management of
                             Delivery Services, states: “The inspection of a route is
                             the observation by a manager of the carrier’s office
                             and street work for one or more days and includes
                             counting and recording the mail handled and the time
                             used for each function." The former supervisor was
                             placed in a management position, which by definition
                             is a position of authority.

                             We further learned that on May 18, 1998, the
                             Manager, Post Office Operations, Santa Ana District,
                             issued a Notice of Proposed Adverse Action –
                             Removal against the same supervisor. This notice
                             cited three non-sexual harassment charges. On
                             November 5, 1998, USPS issued a Letter of Decision
                             – Adverse Action that stated that the three charges
                             were supported by the evidence. However, in

4
 USPS policy and procedures define a route examiner as a manager who observes and
evaluates a carrier’s work.



                                           10
                                  Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations	             LR-AR-99-008


                           consideration of his 18 years of service USPS
                           management believed that “the possibility for
                           rehabilitation into an efficient postal employee still
                           exists.” Consequently, USPS reduced the employee's
                           proposed removal to an involuntary reduction in grade
                           and pay.

                           On December 11, 1998, the employee appealed this
                           decision to the Merit Systems Protection Board. On
                           January 19, 1999, a Settlement Agreement was
                           reached to end the dispute. This agreement stipulated
                           that the appellant would be restored to his previous
                           grade and reassigned as a Customer Services
                           Analyst, Santa Ana District, in a non-supervisory
                           position, effective January 16, 1999. As a condition of
                           his settlement, he agreed to withdraw his appeal with
                           the Merit Systems Protection Board.

                           The USPS position description of the Customer
                           Services Analyst includes the following duties:
                           "Conducts or oversees route inspections," and
                           "provides program oversight and guidance to other
                           employees in the implementation of processes and
                           procedures”, both of which involve contact with
                           employees of a supervisory nature. We believe these
                           duties are contrary to the Merit Systems Protection
                           Board Settlement Agreement, which dictate that the
                           appellant should be reassigned to a non-supervisory
                           position. We are concerned that retaining this
                           employee in a position with oversight responsibilities
                           over employees could adversely affect workplace
                           climate based on the perception that management
                           does not take harassment and intimidation allegations
                           seriously.

 Recommendation 3	         The Vice President, Pacific Area, review the position
                           to determine if it can be modified to remove the
                           supervisory duties and responsibilities and still meet
                           the terms of the Merit Systems Protection Board
                           Settlement Agreement.

 Management 	              Management did not agree with this recommendation.
 Comments	                 They told us that the supervisor does not supervise or
                           oversee the same employees on a daily basis, and
                           that he is assigned duties that are technical and



                                        11
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations                LR-AR-99-008


                           administrative in nature. They told us that the position
                           could not be modified to eliminate contact with other
                           employees because such a modification would
                           eliminate the essential functions of the position.
                           Management also told us that it believes the
                           supervisor’s position meets the terms of the Merit
                           Systems Protection Board Settlement Agreement.

 Evaluation of             We do not agree with management’s response. Both
 Management                the District's pledge in May 1998, and the Merit
 Response                  Systems Protection Board Settlement, state that the
                           supervisor would be reassigned to a job with no direct
                           responsibility for supervising employees. We found
                           that the position description of the Customer Service
                           Analyst, included supervisory duties while conducting
                           route examinations.

                           In addition, management states in their response to
                           this audit report that the supervisor continues to
                           “supervise or oversee” employees. Specifically,
                           management admits that he supervises different
                           employees on a daily basis but “does not supervise or
                           oversee the same employees on a daily basis.” We
                           believe the intent of the District’s pledge and the Merit
                           Systems Protection Board Settlement was that the
                           former supervisor would not supervise employees in
                           any capacity.




                                        12
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations   LR-AR-99-008




Major Contributors to     Joe Arvizu
This Report:              Joyce Hansen
                          Rosa Howard
                          Regina Manasseh
                          Chris Nicoloff
                          Rita Oliver
                          Patricia Pickett
                          Hugh Reynolds
                          Karen Shaffer
                          Sharon Spencer
                          Ronnie Wainwright
                          Kim Wright
                          Sheila Zimmerman




                                        13
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations   LR-AR-99-008




                                        14                    Appendix
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations   LR-AR-99-008




                                        15                    Appendix
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations   LR-AR-99-008




                                        16                    Appendix
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations   LR-AR-99-008




                                        17                    Appendix
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations   LR-AR-99-008




                                        18                    Appendix
                               Restricted Information
Garden Grove Post Office – Sexual Harassment Allegations   LR-AR-99-008




                                        19                    Appendix
                               Restricted Information
